2311 Douglas Street
Omaha, Nebraska 68102-1214

TN
COCKLE

Est. 1923

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

No.

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

ZAFAR BAKHRAMOVICH YADIGAROV,

Petitioner,
Vv.

UNITED STATES OF AMERICA,

Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF

CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 7406 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 7th day of June, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska a
A RENEE J. GOSS 9
My Comm. Exp. September 5, 2023 x

Notary Public

Dudiar-h, Obl

Affiant 41053
